      Department of Homeland Security




     Information Technology Management Letter for the
    Transportation Security Administration Component of
        the FY 2012 Department of Homeland Security
                 Financial Statement Audit




OIG-13-78                                       April 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                             Washington, DC 20528 / www.oig.dhs.gov




                                    April 18, 2013


MEMORANDUM FOR:              Dr. Emma Garrison-Alexander
                             Chief Information Officer
                             Transportation Security Administration

                             David Nicholson
                             Chief Financial Officer
                             Transportation Security Administration

FROM:                        Frank Deffer
                             Assistant Inspector General
                             Office of Information Technology Audits

SUBJECT:                     InformationfTechnologyfManagementfLetterfforfthef
                             TransportationfSecurityfAdministrationfComponentfoffthef
                             FYf2012fDepartmentfoffHomelandfSecurityfFinancialf
                             StatementfAudit

Attached for your action is our final report, InformationfTechnologyfManagementfLetterf
forfthefTransportationfSecurityfAdministrationfComponentfoffthefFYf2012fDepartmentfoff
HomelandfSecurityfFinancialfStatementfAudit.ffThe independent accounting firm KPMG
LLP (KPMG) performed the Department of Homeland Security’s financial statement
audit as of September 30, 2012, and prepared this information technology (IT)
management letter.ff

KPMG is responsible for the attached IT management letter dated December 20, 2012,
and the conclusion expressed in it. We do not express an opinion on DHS’ financial
statements or internal controls or conclusions on compliance with laws and regulations.
The DHS management concurred with all recommendations.

Consistent with our responsibility under the InspectorfGeneralfAct, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Sharon Huiswoud, Director,
Information Systems Audit Division, at (202) 254-5451.
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




April 4, 2013

Inspector General
U.S. Department of Homeland Security

Chief Information Officer and
Chief Financial Officer
Transportation Security Administration

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or
Department) as of September 30, 2012, and the related statements of net cost, changes in net
position, and custodial activity, and combined statement of budgetary resources for the year then
ended (referred to as the “fiscal year (FY) 2012 financial statements”). We were also engaged to
audit the Department’s internal control over financial reporting of the FY 2012 financial
statements. The objective of our audit engagement was to express an opinion on the fair
presentation of the FY 2012 financial statements and the effectiveness of internal control over
financial reporting of the FY 2012 financial statements.
In accordance with Government Auditing Standards, our Independent Auditors’ Report, dated
November 14, 2012, included internal control deficiencies identified during our audit
engagement that, in aggregate, represented a material weakness in information technology (IT)
controls and financial system functionality at the DHS Department-wide level. This letter
represents the separate limited distribution report mentioned in that report, of matters related to
the Transportation Security Administration (TSA).
During our audit engagement, we noted certain matters in the areas of access controls,
configuration management, security management, and contingency planning with respect to
TSA’s financial systems general IT controls (GITC) which we believe contribute to a DHS
Department-wide material weakness in IT controls and financial system functionality. These
matters are described in the General IT Control Findings and Recommendations section of this
letter.
The comments described herein have been discussed with the appropriate members of
management, or communicated through Notices of Findings and Recommendations (NFRs), and
are intended For Official Use Only. We aim to use our knowledge of DHS’ organization gained
during our audit engagement to make comments and suggestions that we hope will be useful to
you. We have not considered internal control since the date of our Independent Auditors’
Report.
The Table of Contents on the next page identifies each section of the letter. We have provided a
description of key TSA financial systems within the scope of the FY 2012 DHS financial
statement audit engagement in Appendix A; a description of each internal control finding in
Appendix B; and the current status of the prior year NFRs in Appendix C. Our comments
related to financial management and reporting internal controls (comments not related to IT)




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
have been presented in a separate letter to the Office of Inspector General (OIG) and the DHS
Chief Financial Officer.
This report is intended solely for the information and use of DHS management, DHS OIG, U.S.
Office of Management and Budget, U.S. Government Accountability Office (GAO), and the
U.S. Congress, and is not intended to be and should not be used by anyone other than these
specified parties.


Very truly yours,
                                  Department of Homeland Security

                               Transportation Security Administration

                              Information Technology Management Letter
                                         September 30, 2012



                 INFORMATION TECHNOLOGY MANAGEMENT LETTER

                                        TABLE OF CONTENTS

                                                                                              Page

Objective, Scope, and Approach                                                                 1

Summary of Findings and Recommendations                                                        2

General IT Control and Financial System Functionality Findings and Recommendations             3

   Findings                                                                                    3

        Related to IT Financial Systems Controls                                               3

           Configuration Management                                                            3

           Access Controls                                                                     3

           Contingency Planning                                                                3

           Security Management                                                                 3

                 After – Hours Physical Security Testing                                       4

                 Social Engineering Testing                                                    4

        Related to Financial System Functionality                                              4

   Recommendations                                                                             5

Application Controls                                                                           6


                                            APPENDICES

Appendix                                           Subject	                                   Page

            Description of Key TSA Financial Systems and IT Infrastructure within the Scope
   A	                                                                                          7
            of the FY 2012 DHS Financial Statement Audit
   B	       FY 2012 Notices of IT Findings and Recommendations at TSA                          9

            Status of Prior Year Notices of Findings and Recommendations and Comparison
   C	       to Current Year Notices of Findings and Recommendations at Transportation         11

            Security Administration





                   Information Technology Management Letter for the TSA

     Component of the FY 2012 Department of Homeland Security Financial Statement Audit

                                   Department of Homeland Security

                                Transportation Security Administration

                               Information Technology Management Letter
                                          September 30, 2012

                              OBJECTIVE, SCOPE, AND APPROACH

In connection with our engagement to audit the financial statements of DHS as of and for the year ended
September 30, 2012, we performed an evaluation of the general Information Technology (IT) controls
(GITCs) at TSA and the U. S. Coast Guard (Coast Guard) (TSA’s IT service provider for financial
processes), to assist in planning and performing our audit engagement. The Coast Guard Finance Center
(FINCEN) hosts key financial applications for TSA. As such, our audit procedures over GITCs for TSA
included testing of the Coast Guard’s FINCEN policies, procedures, and practices, as well as TSA
policies, procedures and practices at TSA Headquarters (HQ). The Federal Information System Controls
Audit Manual (FISCAM), issued by the GAO, formed the basis of our GITC evaluation procedures. The
scope of the GITC evaluation is further described in Appendix A.

FISCAM was designed to inform financial statement auditors about IT controls and related audit concerns
to assist them in planning their audit work and to integrate the work of auditors with other aspects of the
financial statement audit. FISCAM also provides guidance to auditors when considering the scope and
extent of review that generally should be performed when evaluating GITCs and the IT environment of a
federal agency. FISCAM defines the following five control functions to be essential to the effective
operation of GITCs and the IT environment.

•	 Security Management (SM) – Controls that provide a framework and continuing cycle of activity for
   managing risk, developing security policies, assigning responsibilities, and monitoring the adequacy
   of computer-related security controls.

•	 Access Control (AC) – Controls that limit and/or monitor access to computer resources (data,
   programs, equipment, and facilities) to protect against unauthorized modification, loss, and disclosure.

•	 Configuration Management (CM) – Controls that help to prevent the implementation of unauthorized
   programs or modifications to existing programs.

•	 Segregation of Duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to prevent one individual from controlling key aspects of computer-related operations, thus
   deterring unauthorized actions or access to assets or records.

•	 Contingency Planning (CP) – Controls that involve procedures for continuing critical operations
   without interruption, or with prompt resumption, when unexpected events occur.

To complement our GITC audit, we also performed technical security testing for key network and system
devices. The technical security testing was performed both over the Internet and from within select Coast
Guard and TSA facilities, and focused on test, development, and production devices that directly support
TSA’s financial processing and key general support systems. Limited social engineering and after-hours
physical security testing was also included in the scope of the technical security testing.

In addition to GITC testing, application controls were tested for the year ending September 30, 2012,
which were identified as key controls by the financial audit team.




   Information Technology Management Letter for the Transportation Security Administration

     Component of the FY 2012 Department of Homeland Security Financial Statement Audit

                                          Page 1

                                   Department of Homeland Security

                                Transportation Security Administration

                               Information Technology Management Letter
                                          September 30, 2012

                     SUMMARY OF FINDINGS AND RECOMMENDATIONS

During FY 2012, TSA took corrective action to address prior year IT control deficiencies. For example,
TSA made improvements over its revalidation of user accounts for certain systems; strengthened
password parameters; and ensured administrators had their own unique login id and password. During
FY 2012, we continued to identify IT general control deficiencies that impact TSA’s financial data. In
addition, based upon the results of our test work, we noted that TSA did not fully comply with the
Department’s requirements of the Federal Financial Management Improvement Act of 1996 (FFMIA).

In FY 2012, our IT audit work identified nine IT findings, of which three were repeat findings from the
prior year, and six were new findings. In addition, we determined that TSA remediated three IT findings
identified in previous years. These findings represent deficiencies in four of the five FISCAM key
control areas. Specifically the deficiencies were:

    1.	 Unverified access controls through the lack of comprehensive user access privilege 

        recertifications;

    2.	 Access control issues involving password complexity settings;
    3.	 Lack of review of audit logs;
    4.	 Poorly designed controls over new user access to the network and an individual financial system;
    5.	 Lack of testing of restoration of backups; and
    6.	 Physical security and security awareness issues.

In addition, we determined that the following deficiencies identified at the Coast Guard IT environment
also impact TSA financial data:

    1.	 Inadequately designed and operating IT script change control policies and procedures;
    2.	 Security management issues involving civilian and contractor background investigations;
    3.	 Lack of consistent contractor, civilian, and military system account termination notification
        process;
    4.	 Physical security and security awareness issues; and
    5.	 Procedures for role-based training for individuals with elevated responsibilities not fully

        implemented.


We also considered the effects of financial systems functionality when testing internal controls since key
Coast Guard financial systems that house TSA financial data are not compliant with FFMIA and are no
longer supported by the original software provider. Financial system functionality limitations add to the
challenge of addressing systemic internal control deficiencies, and strengthening the control environment
at FINCEN.

These deficiencies may increase the risk that the confidentiality, integrity, and availability of system
controls and TSA financial data could be exploited thereby compromising the integrity of financial data
used by management and reported in TSA’s financial statements.

While the recommendations made by us should be considered by TSA, it is the ultimate responsibility of
TSA management to determine the most appropriate method(s) for addressing the deficiencies identified.


   Information Technology Management Letter for the Transportation Security Administration

     Component of the FY 2012 Department of Homeland Security Financial Statement Audit

                                          Page 2

                                    Department of Homeland Security

                                 Transportation Security Administration

                                Information Technology Management Letter
                                           September 30, 2012

            GENERAL IT CONTROL AND FINANCIAL SYSTEM FUNCTIONALITY

                        FINDINGS AND RECOMMENDATIONS


Findings:

During our engagement to audit the FY 2012 DHS financial statements, we identified the following TSA
IT and financial system control deficiencies. Our findings are divided into two groupings: 1) financial
systems controls and 2) IT system functionality.

Related to IT Financial Systems Controls:

Configuration Management

The Coast Guard’s core financial system configuration management process controls are not operating
effectively, and continue to present risks to TSA financial data confidentiality, integrity, and availability.
Financial data in the general ledger may be compromised by automated and manual changes that are not
adequately controlled, documented, and tested. For example, the Coast Guard uses an IT scripting
process to make updates, as necessary, to its core general ledger software to process financial data, and
we found inconsistencies of data within the script record documentation existed.

Access Controls

•	 The Computer Access Agreement process for TSA employees has not been consistently implemented
   and applied based on TSA policy.
•	 Access review procedures for one key financial application, Electronic Time Attendance and
   Scheduling (eTAS), does not include the review of all user accounts to ensure that all terminated
   individuals no longer have active accounts; inactive accounts are locked; and privileges associated
   with each individual are still authorized and necessary.
•	 Password settings for one key financial application, eTAS, were not configured to enforce password
   length or complexity.
•	 New users obtained access to eTAS without all required training completed or new user access forms
   completed as required by TSA policy.
•	 Audit logs are not reviewed for inappropriate or unusual activity over eTAS.

Contingency Planning

•	 Restoration testing of backup media over eTAS is not performed to ensure integrity and reliability of
   data.

Security Management

•	 Formalized documented policies do not exist to ensure IT systems are properly evaluated for basic
   requirements by the appropriate offices and levels of management prior to the system implementation
   of eTAS.
•	 During our after-hours physical security and social engineering testing, we identified exceptions in the
   protection of sensitive user account information. The tables below detail the exceptions identified at
   the locations tested.

   Information Technology Management Letter for the Transportation Security Administration

     Component of the FY 2012 Department of Homeland Security Financial Statement Audit

                                          Page 3

                                     Department of Homeland Security

                                  Transportation Security Administration

                                 Information Technology Management Letter
                                            September 30, 2012

After-Hours Physical Security Testing:

We performed after-hours physical security testing to identify risks related to non-technical aspects of IT
security. These non-technical IT security aspects include physical access to media and equipment that
houses financial data and information residing on a TSA employee’s / contractor’s desk, which could be
used by others to gain unauthorized access to systems housing financial information. The testing was
performed at TSA HQ.

                 Exceptions Noted (1)                               Total Exceptions at TSA
                                                                          HQ by Type
                 Passwords (2)                                                    6
                 Keys                                                             1
                 Personally Identifiable Information (PII) (3)                    3
                 Unlocked Laptop                                                  4
                 External Drive, Other Media, etc.                                2
                 Total Exceptions at TSA HQ                                      16
                 (1) There were cases of multiple exceptions in a single workspace, but the type
                     of exception was only noted as 1 exception. For example, one cubicle had
                     multiple passwords, but this was only recorded as 1 exception.
                 (2) Attempts to login to the systems with the identified passwords were not
                     performed. However, we assumed that the identified passwords were valid
                     passwords. Also includes one password for a debit card account.
                 (3) Includes one health form containing sensitive PII.

Social Engineering Testing:

Social engineering is defined as the act of attempting to manipulate or deceive individuals into taking
action that is inconsistent with DHS policies, such as divulging sensitive information or allowing /
enabling computer system access. The term typically applies to trickery or deception for the purpose of
information gathering, or gaining computer system access.

  Total Called              Total Answered               Number of employees who provided their user ID
                                                                        and password

       45                           15                                                3

Related to Financial System Functionality:

We noted that financial system functionality limitations are contributing to control deficiencies, inhibiting
progress on corrective actions impacting TSA. These functionality limitations are preventing the TSA
from improving the efficiency and reliability of its financial reporting processes. Some of the financial
system limitations lead to extensive manual and redundant procedures to process transactions, verify
accuracy of data, and to prepare financial statements. Systemic conditions related to financial system
functionality include:


   Information Technology Management Letter for the Transportation Security Administration

     Component of the FY 2012 Department of Homeland Security Financial Statement Audit

                                          Page 4

                                   Department of Homeland Security

                                Transportation Security Administration

                               Information Technology Management Letter
                                          September 30, 2012

•	 Financial systems functionality limitations are preventing the TSA from establishing automated
   processes and application controls that would improve accuracy, reliability, and facilitate efficient
   processing of certain financial data such as:
    -   Maintaining adequate posting logic transaction codes to ensure that transactions are recorded in
        accordance with generally accepted accounting principles; and
    -   Tracking detailed transactions associated with intragovernmental business and eliminating the
        need for default codes such as Trading Partner Identification Number that cannot be easily
        researched.

Recommendations:

We recommend that TSA take the following corrective actions:

•	 Work with the DHS Chief Financial Officer (CFO), DHS Chief Information Officer, and Coast Guard
   HQ to ensure the following planned corrective actions take place in a timely manner:
    -   Continue to provide training and update the procedures and tools if necessary, to better document
        and review the Test Strategy Field among the script analysts and script approvers to promote
        consistency.
    -   Continue to conduct internal FINCEN Internal Control Branch (ICB) review over the script
        process, software development life cycle, and configuration management policies and procedures.
•	 Direct the Information Assurance Division to provide the Financial Management Division’s ICB with
   the Quarterly Delinquency Report for IT Security Awareness Training.
•	 Direct the ICB to develop an internal control review on the delinquency rate of users who are beyond
   the 60 day requirement per the TSA Information Assurance Handbook.
•	 Ensure that Supervisors and Contracting Officer’s Representatives within each program office in TSA
   require each employee and contractor complete IT Security Awareness Training within 60 days of
   being granted access to information systems, in accordance with the IT Security Policy Handbook.
•	 Update the eTAS policy to state that license audits will be conducted on a quarterly basis.
•	 Work with the airports once eTAS has marked its first year to conduct annual account recertifications
   in order to be in compliance with DHS 4300A.
•	 Enable the existing password complexity functionality within the eTAS application and require all
   users to change their passwords to contain a combination of all the following: alphabetic (lowercase
   and uppercase), numeric and special characters.
•	 Adhere to the policy regarding KRONOS training certificates and access forms.
•	 Instruct a TSA contractor to create a log parsing facility for the KRONOS Application logs which will
   generate a list of User Account changes (Creation, Deletion, Modification of Rights and Privileges)
   that occurred within the last month. This list of account changes will be compared against the
   Account Request forms for that month. The review will be conducted by the System Owner or
   designee.
•	 Work with the TSA Security Operations Center (SOC) to send all log files from the Windows servers
   as well as the ETA KRONOS application and web server itself to the TSA SOC where centralized
   logging, log correlation, audit reduction, real-time review and analysis can be conducted on a regular
   basis.



   Information Technology Management Letter for the Transportation Security Administration

     Component of the FY 2012 Department of Homeland Security Financial Statement Audit

                                          Page 5

                                   Department of Homeland Security

                                Transportation Security Administration

                               Information Technology Management Letter
                                          September 30, 2012

•	 Perform annual testing to ensure the integrity and reliability of the backup media in compliance with
   DHS Sensitive Systems Policy Directive 4300A, Information Technology Security Program, the TSA
   Information Assurance Handbook, and National Institute of Standards and Technology Special
   Publication 800-53, revision 3.
•	 Dedicate resources to execute elements of the IT Security Awareness Training program related to
   social engineering, including conducting internal testing on a quarterly basis, conducting one-on-one
   training with individuals failing social engineering attempts, taking administrative actions, if needed,
   on a case-by-case basis in regards to social engineering, and conducting communications campaigns
   via broadcasts warning against social engineering.
•	 Ensure during New Employee orientation, the Office of Security will continue to advise new
   employees to secure their cubicles/offices, to include sensitive information, when not at their
   cubicles/offices.
•	 Ensure that when personnel are reassigned, that individual’s Business Management Office (BMO)
   notify the Office of Security of their newly assigned office and floor. This will enable the Office of
   Security to assign the appropriate access to the employee’s Personal Identity Verification (PIV) card
   and/or provide office keys to an individual with an office.
•	 Coordinate efforts between the Office of Security and BMOs and/or the office occupant to ensure that
   individuals authorized to have access to the office besides the office occupant are identified.
•	 Implement appropriate monitoring controls around personnel separation procedures to ensure that
   BMOs/Contracting Officer’s Technical Representatives consistently notify the Office of Security in a
   timely manner when individuals depart TSA so that their PIV card access can be terminated.
•	 Implement appropriate monitoring controls around personnel separation procedures to ensure that
   limited physical access is granted by Office of Security to authorized personnel only in accordance
   with an official request.
•	 Coordinate efforts between the TSA CFO and the TSA Chief Information Security Officer (CISO) to
   develop a process to communicate potential financial systems to the CISO that would be used to
   update the Trusted Agent Federal Information Security Management Act tool.
•	 Implement appropriate monitoring controls around the evaluation of TSA systems and subsequent
   documentation and management of POA&Ms and auditor-identified weaknesses to ensure that all
   weaknesses are corrected.
•	 Coordinate efforts between the TSA CFO and the TSA CISO to ensure that the inventory submitted to
   the DHS CFO for CFO designated financial systems is complete and accurately represents the current
   IT environment.


                                     APPLICATION CONTROLS

Application controls were tested for the year ending September 30, 2012, and we found no issues.




   Information Technology Management Letter for the Transportation Security Administration

     Component of the FY 2012 Department of Homeland Security Financial Statement Audit

                                          Page 6

                                                                               Appendix A

                            Department of Homeland Security

                         Transportation Security Administration

                        Information Technology Management Letter
                                   September 30, 2012




                                   Appendix A

Description of Key TSA Financial Systems and IT Infrastructure

within the Scope of the FY 2012 DHS Financial Statement Audit





Information Technology Management Letter for the Transportation Security Administration

  Component of the FY 2012 Department of Homeland Security Financial Statement Audit

                                       Page 7

                                                                                             Appendix A

                                  Department of Homeland Security

                               Transportation Security Administration

                              Information Technology Management Letter
                                         September 30, 2012

Below is a high-level description of significant financial management systems included in the scope of
the engagement to perform the financial statement audit.

Core Accounting System (CAS)

CAS is the core accounting system that records financial transactions and generates financial statements
for the United States Coast Guard. CAS is hosted at the Coast Guard’s FINCEN in Virginia (VA) and is
managed by the United States Coast Guard. The FINCEN is the Coast Guard’s primary financial system
data center. CAS interfaces with other systems located at the FINCEN, including Financial and
Procurement Desktop.

Financial Procurement Desktop (FPD)

The FPD application is used to create and post obligations to the core accounting system. It allows users
to enter funding, create purchase requests, issue procurement documents, perform system administration
responsibilities, and reconcile weekly program element status reports. FPD is interconnected with the
CAS system and is hosted at the FINCEN in VA and is and managed by the Coast Guard.

Sunflower

Sunflower is a customized third-party commercial off-the-shelf product used for TSA and Federal Air
Marshal Service property management. Sunflower interacts directly with the Office of Finance Fixed
Assets module in CAS. Additionally, Sunflower is interconnected to the FPD system and is hosted at the
FINCEN in VA and is managed by the Coast Guard.

MarkView

MarkView is imaging and workflow software used to manage invoices in CAS. Each invoice is stored
electronically and associated to a business transaction so that users are able to see the image of the
invoice. MarkView is interconnected with the CAS system and is located at the FINCEN in VA and is
managed by the Coast Guard.

Electronic Time Attendance and Scheduling (eTAS)

eTAS is an automated and standardized labor management solution. The system provides an automated
means to schedule employee work and leave hours, record hours worked / not worked, and provide bi­
weekly time records to TSA’s payroll provider, the National Finance Center. The system automates the
workforce management process to reduce the amount of time, effort, and associated cost required for
entry of data.




   Information Technology Management Letter for the Transportation Security Administration

     Component of the FY 2012 Department of Homeland Security Financial Statement Audit

                                          Page 8

                                                                               Appendix B

                            Department of Homeland Security

                         Transportation Security Administration

                        Information Technology Management Letter
                                   September 30, 2012




                                   Appendix B

 FY 2012 Notices of IT Findings and Recommendations at TSA





Information Technology Management Letter for the Transportation Security Administration

  Component of the FY 2012 Department of Homeland Security Financial Statement Audit

                                       Page 9

                                                                                                                     Appendix B
                                                    Department of Homeland Security
                                                 Transportation Security Administration
                                                Information Technology Management Letter
                                                           September 30, 2012

FY 2012 NFR #                             NFR Title                            FISCAM Control Area       New Issue   Repeat Issue
TSA-IT-12-01    Physical Security and Security Awareness Issues identified        Access Controls                         X
                during enhanced security testing
TSA-IT-12-02    Computer Access Agreements                                        Access Controls                         X
TSA-IT-12-03    eTAS User Account Recertification                                 Access Controls           X
TSA-IT-12-04    eTAS User Passwords                                               Access Controls           X
TSA-IT-12-05    eTAS Restoration Testing of Media Backups                       Contingency Planning        X
TSA-IT-12-06    eTAS Audit Logs                                                   Access Controls           X
TSA-IT-12-07    eTAS System User Access                                           Access Controls           X
TSA-IT-12-08    Configuration Management Controls Over the Coast Guard        Configuration Management                    X
                Scripting Process
TSA-IT-12-09    eTAS Pre-Implementation Deficiencies                            Security Management         X




                   Information Technology Management Letter for the Transportation Security Administration

                     Component of the FY 2012 Department of Homeland Security Financial Statement Audit

                                                         Page 10

                                                                               Appendix C

                            Department of Homeland Security

                         Transportation Security Administration

                        Information Technology Management Letter
                                   September 30, 2012




                                   Appendix C
Status of Prior Year Notices of Findings and Recommendations
   and Comparison to Current Year Notices of Findings and
                  Recommendations at TSA




Information Technology Management Letter for the Transportation Security Administration

  Component of the FY 2012 Department of Homeland Security Financial Statement Audit

                                      Page 11

                                                                                                                              Appendix C
                                              Department of Homeland Security
                                           Transportation Security Administration
                                          Information Technology Management Letter
                                                     September 30, 2012

                                                                                                                Disposition
  NFR No.                                            Description                                       Closed                 Repeat
TSA-IT-11-01     Markview – Password Settings                                                            X
TSA-IT-11-02     Markview – Administrator Account                                                        X
                 Physical Security and Security Awareness Issues Identified during Enhanced Security
TSA-IT-11-03                                                                                                                    X
                 Testing
TSA-IT-11-04     TSA Computer Access Agreement Process                                                                          X
TSA-IT-11-05     Sunflower and Markview User Account Recertifications                                    X
TSA-IT-11-06     Configuration Management Controls Over the Coast Guard Scripting Process                                       X




               Information Technology Management Letter for the Transportation Security Administration

                 Component of the FY 2012 Department of Homeland Security Financial Statement Audit

                                                     Page 12

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
